No. 20-86
In the

Supreme Court of the United States
__________________

CHARLES DANIELS, DIRECTOR, et al.,
Petitioners,
v.
RONALD ROSS,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF FOR PETITIONERS . . . . . . . . . . . . 1
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii
TABLE OF AUTHORITIES
CASES
Anderson v. Bondex Intern., Inc.,
552 Fed. App’x. 153 (3d Cir. 2014) . . . . . . . . . . . . 3
Banister v. Davis,
140 S. Ct. 1968 (2020) . . . . . . . . . . . . . . . . . . . . . . 2, 8
Dean v. United States,
278 F.3d 1218 (11th Cir. 2002). . . . . . . . . . . . . 3, 4
Dye v. Hofbauer,
546 U.S. 1 (2005). . . . . . . . . . . . . . . . . . . . . . . . 4, 6
Mayle v. Felix,
544 U.S. 644 (2005). . . . . . . . . . . . . . . . . . . passim
Nguyen v. Curry,
346 F.3d 1287 (9th Cir. 2013). . . . . . . . . . . . . . . . 4
Pinchon v. Myers,
615 F.3d 631 (6th Cir.) . . . . . . . . . . . . . . . . . . . . . 3
Smith v. Mahoney,
611 F.3d 978 (9th Cir. 2010). . . . . . . . . . . . . . . . . 3
United States v. Ciampi,
419 F.3d 20 (1st Cir. 2005) . . . . . . . . . . . . . . . . . . 3
RULES
Fed. R. Civ. P. 10(c) . . . . . . . . . . . . . . . . . . . . . . 4, 6, 7
Fed. R. Civ. P. 15(c) . . . . . . . . . . . . . . . . . . . . . . . . 3, 7
Habeas Rule 2(c). . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 7

1
“The situation here occurs regularly,” said Ronald
Ross to the Ninth Circuit. Petition for Rehearing and
Rehearing En Banc, Ross v. Williams, No. 16-16533, at
1 (9th Cir. October 1, 2018) (Dkt. 39-1). Now that he
has prevailed before the en banc Ninth Circuit, he has
changed his tune and tells this Court the opposite.
Respondent’s Brief in Opposition (hereinafter “Opp.”)
at 8.
The juxtaposition of Ross’s representations to the
Ninth Circuit with his representations to this Court,
speaks for itself. But if that is not enough to leave this
Court skeptical of Ross’s attempts to downplay the farreaching consequences of the Ninth Circuit’s new
relation-back rule, Ross’s representation that his case
is unique and unlikely to be repeated is flatly
contradicted by his own arguments.
As Ross points out, the form petition requires a
petitioner to attach the relevant state court orders to
their petition. Opp. at 11. Consequently, the Ninth
Circuit’s new rule will be available to every pro se
habeas petitioner in the Ninth Circuit that files a
timely federal petition with the required state court
orders attached and then seeks to amend his petition
after expiration of the statute of limitations.
This contradiction in Ross’s arguments is just the
beginning of why this Court should be skeptical of
Ross’s attempts to downplay the Ninth Circuit’s new
rule. As the four main points laid out below establish,
the Ninth Circuit’s decision will reach far beyond the
circumstances presented in this case and warrants this
Court’s review. It is reminiscent of the boundless rule
this Court rejected in Mayle v. Felix, 544 U.S. 644

2
(2005), which, contrary to Ross’s suggestion that
Petitioners have never established any prejudice, is
inherently prejudicial to state interests in finality of
state judgments of conviction. 545 U.S. at 662-63
(noting that the statute of limitations is part of the
AEDPA framework, which is designed to protect state
interests in comity and finality).
First, Ross argues that Respondents have not
identified a split of authority. Opp. at 8. But the
absence of a split of authority is not a bar to this
Court’s review. This Court will grant review of cases
where a lower court “has decided an important federal
question in a way that conflicts with relevant decisions
of this Court.” Sup. Ct. R. 10(c). And the en banc
opinion in this case conflicts with this Court’s
decisions—Mayle, in particular—recognizing that the
Federal Rules of Civil Procedure1 only apply in habeas
cases to the extent they do not conflict with the
statutes and rules specific to federal habeas review.
See also Banister v. Davis, 140 S. Ct. 1968 (2020).
On this point, Ross argues that Mayle did not set
forth a habeas specific standard for relation back. Opp.
at 13-14. Even assuming that is true, Ross’s point
misses the mark. The rule this Court rejected in
Mayle, and its rationale for doing so, is the central
issue in this case. 545 U.S. at 656-64. Just like in
Mayle, the question here is whether the Ninth Circuit’s
1

As within the petition, Petitioners will refer to the Federal Rules
of Civil Procedure as “Civil Rule _,” and the Rules Governing
Section 2254 Cases in the United States District Courts as
“Habeas Rule __”. See Petition for Writ of Certiorari (hereinafter
“Pet.”) at 1 nn.1-2.

3
creation of a new rule on the application of relation
back creates a conflict between the statutes and rules
governing habeas procedure and the Civil Rules. And
it does, based on the same principles that led this
Court to reject the rule the Ninth Circuit adopted in
Mayle—an overly broad application of Civil Rule 15(c)
conflicts with the AEDPA statute of limitations. Id.
at 662-63.
But even if Ross’s argument that Mayle does not set
a specific standard for habeas cases is relevant, just ten
years ago, the Ninth Circuit characterized Mayle as
modifying the standard for relation back under Civil
Rule 15(c) while resolving “the question of how to
interpret the relation back doctrine within the context
of APEDA’s intents and constraints.” Smith v.
Mahoney, 611 F.3d 978, 994 (9th Cir. 2010). Ross’s and
the Ninth Circuit’s reliance on Dean v. United States,
278 F.3d 1218, 1221 (11th Cir. 2002), to suggest the
contrary is fundamentally misplaced because the
Eleventh Circuit decided Dean before this Court
decided Mayle. And other circuits have held that Mayle
sets a standard for applying Civil Rule 15(c) that is
specific to habeas cases. See, e.g., United States v.
Ciampi, 419 F.3d 20, 23-24 (1st Cir. 2005) (noting that
“in the habeas context, the Rule 15 ‘relation back’
provision is to be strictly construed”); Pinchon v. Myers,
615 F.3d 631, 642 (6th Cir.) (noting that Mayle
“adopted a narrow reading” of Civil Rule 15(c)); but see
Anderson v. Bondex Intern., Inc., 552 Fed. App’x. 153,
155-58 (3d Cir. 2014) (rejecting claim that federal
district court erred in applying Mayle in an ordinary
civil case).

4
Second, Ross downplays the impact of this case by
suggesting it will be limited by its facts. Opp. at 15, 17.
Based on Ross’s logic, he should have lost below. If
cases are so limited by their facts, it is the dissent that
correctly applied Dye v. Hofbauer, 546 U.S. 1, 4 (2005),
by focusing on this Court’s recognition that Civil Rule
10(c) applied in that case because Dye made specific
and repeated references to the hand-written
memorandum he attached to his petition. App. 49.
But just as Ross has done with Dye in this case,
habeas petitioners in the Ninth Circuit may now argue
that the en banc court’s new rule is a general rule that
applies to any untimely amended petition that follows
a prior timely filed petition with any attached exhibits
that are a written instrument. And because the Ninth
Circuit failed to define what qualifies as a “written
instrument” or provide any guidance on when a
petitioner has sufficiently “attempted” to set out a
claim for relief, the rule in this case remains largely
without limit.
For example, in alignment with his reliance on
Dean, Ross shades his argument to suggest that the
Ninth Circuit’s new rule merely allows petitioners to
replead claims the petitioner identified but
insufficiently pleaded in his original petition. Opp. at
11-12, 15-16. But relation back is not so limited. In
addition to repleading claims he already “attempted” to
set out, the petitioner may plead new legal theories
that share a common core of operative facts with the
claims he “attempted” to be set out in the original
petition. See, e.g., Nguyen v. Curry, 346 F.3d 1287,
1297 (9th Cir. 2013) (“But the ‘time and type’ language
in Mayle refers not to the claims, or grounds for relief.

5
Rather, it refers to the facts that support those
grounds.”) (emphasis in original).
How specific does a claim have to be to establish an
“attempt” to set it out? Is it enough to say counsel was
ineffective in preparing for trial? If so, would that then
open the door to a petitioner raising a multitude of
claims that trial counsel failed to (1) file pretrial
motions to suppress or motions in limine, (2) seek a
change of venue, (3) investigate particular witnesses,
(4) research the law on the availability of a particular
defense, and (5) retain an expert witness? Would it be
enough to say counsel was ineffective on direct appeal
to then open the door to a petitioner raising a
multitude of claims alleging that appellate counsel was
ineffective for not raising on direct appeal?
The en banc majority did focus on the need for a
petitioner to show that the operative facts of his
amended petition arise from a common core of
operative facts with the claims he “attempted” to set
out in his original petition. App. 16-17. But by
evasively declining to provide guidance on when a
claim is “attempted to be set out,” the en banc majority
completely dulls the teeth of that limitation. And
without clear, easy to apply limits on this rule, it is
easy to see that the dissenting judges’ concerns about
habeas petitioners pleading “broad, malleable claims
for relief” and attaching the state court petition, as
required by the form petition, are not a farfetched.
App. 47.
Third, Ross suggests that the opinion from below
has no impact on application of Habeas Rule 2(c)
because (1) Petitioners conflate the difference between

6
pleading standards and relation back, and (2) the
Ninth Circuit did not say it was addressing the scope of
Habeas Rule 2(c). Opp. at 16. But that argument fails
to confront the fallacy Petitioners’ identified in the
Ninth Circuit’s logic on this issue: if Civil Rule 10(c)
makes something part of the petition for some
purposes, it makes that thing part of the petition for all
purposes.
That includes setting out the facts
supporting a petitioner’s claims for relief. And this
must be true when the case Ross relies upon to
establish that Civil Rule 10(c) applies to habeas cases
is a case about sufficiency of the pleading, not relation
back. Dye, 546 U.S. at 4.
If the facts in an attachment to the petition are part
of the petition for all purposes, they must be part of the
petition for both pleading and relation back. As a
result, Ross’s arguments that the Ninth Circuit’s new
rule does not conflict with the purposes of various
aspects of Habeas Rule 2 fall flat. And that problem is
exacerbated by the lack of guidance on what is a
written instrument, which incentivizes habeas
petitioners to attach more documents to their petition.
Fourth Ross argues that he would still prevail
under Petitioners’ rule. Opp. at 19. Ross is wrong. He
did not incorporate the state court order in his petition
to present any facts supporting his claims for relief.
Opp. App. 2-10. And even Ross is correct that his
petition would survive under a narrow standard, that
is all the more reason for this Court’s intervention.
The Ninth Circuit did not decide this case on such
narrow grounds. Instead, the lower court crafted a
sweeping rule that is now entrenched in a published en

7
banc opinion that, contrary to Mayle, creates a conflict
between the Civil Rules and the AEDPA statute of
limitations and the Habeas Rules. And if questions
remain about whether Ross’s petition would survive
under any rule this Court adopts, the Court can vacate
the judgment and remand to allow the lower courts to
resolve that issue.
***
Fifteen years ago, this Court rebuked the Ninth
Circuit’s attempt to apply Civil Rule 15(c) in a way that
would swallow the statute of limitations. Mayle, 545
U.S. at 662. In doing so, this Court grounded its
decision on the principle that application of relation
back in habeas cases must be applied in a way that
does not undermine the AEDPA statute of limitations,
which is aimed at protecting state interests in finality.
And this Court turned to the specific pleading
requirement from Habeas Rule 2(c) to provide a
necessary limiting principle. Id. at 654-55.
The panel majority heeded this Court’s directive
from Mayle and interpreted Civil Rule 15(c) and Civil
Rule 10(c) in a way that was faithful to this Court’s
repeated acknowledgement that the Civil Rules must
conform to the Habeas Rules, not the other way
around. But an en banc panel of the Ninth Circuit
reversed and established a new rule that, like the rule
this Court rejected in Mayle, is boundless and
threatens to swallow the statute of limitations. And in
doing so, it improperly interpreted the Civil Rules as
controlling application of habeas procedure, when this
Court has made abundantly clear that it is the rules
and statutes that govern habeas cases that control

8
application of the Civil Rules in the habeas context.
Mayle, 545 U.S. at 654-55; see also Banister v. Davis,
140 S. Ct. 1968 (2020).
While this Court typically waits for a split to form
before it undertakes review of an issue, the
consequences of the Ninth Circuit’s sweeping rule are
already known. Ross does not dispute that the Rules
Committee already acknowledged it wrote Habeas Rule
2 and implemented the use of a form petition to
discourage the kind of behavior the Ninth Circuit’s new
rule now rewards. And the ultimate consequences of
this new rule will damage the system as a whole. This
Court should not wait for a split to develop before
addressing this important issue.
CONCLUSION
The petition should be granted.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
October 2020

Counsel for Petitioners

